<html>
<title> - THE ENVIRONMENT AND HUMAN HEALTH: HHS' ROLE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







                   THE ENVIRONMENT AND HUMAN HEALTH:
                               HHS' ROLE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 22, 2010

                               __________

                           Serial No. 111-112






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-567                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001














                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
                         Subcommittee on Health

                FRANK PALLONE, Jr., New Jersey, Chairman
JOHN D. DINGELL, Michigan            NATHAN DEAL, Georgia,
BART GORDON, Tennessee                   Ranking Member
ANNA G. ESHOO, California            RALPH M. HALL, Texas
ELIOT L. ENGEL, New York             BARBARA CUBIN, Wyoming
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              STEVE BUYER, Indiana
LOIS CAPPS, California               JOSEPH R. PITTS, Pennsylvania
JANICE D. SCHAKOWSKY, Illinois       MARY BONO MACK, California
TAMMY BALDWIN, Wisconsin             MIKE FERGUSON, New Jersey
MIKE ROSS, Arkansas                  MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          SUE WILKINS MYRICK, North Carolina
JIM MATHESON, Utah                   JOHN SULLIVAN, Oklahoma
JANE HARMAN, California              TIM MURPHY, Pennsylvania
CHARLES A. GONZALEZ, Texas           MICHAEL C. BURGESS, Texas
JOHN BARROW, Georgia
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa









                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     2
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     3
Hon. Donna M. Christensen, a Representative in Congress from the 
  Virgin Islands, opening statement..............................     5
Hon. Jane Harman, a Representative in Congress from the State of 
  California, opening statement..................................     6
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     7
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     8
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, opening statement.....................................     9
Hon. Phil Gingrey, a Representative in Congress from the State of 
  Georgia, opening statement.....................................    11
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................    57
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, prepared statement..............................    59
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    60

                               Witnesses

Linda Birnbaum, Director, National Institute of Environmental 
  Health Sciences and National Toxicology Program................    12
    Prepared statement...........................................    15
    Answers to submitted questions...............................    66
Henry Falk, Acting Director, National Center for Environmental 
  Health and Agency for Toxic Substances and Disease Registry....    22
    Prepared statement...........................................    24

 
              THE ENVIRONMENT AND HUMAN HEALTH: HHS' ROLE

                              ----------                              


                        THURSDAY, APRIL 22, 2010

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:35 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Frank 
Pallone, Jr., [Chairman of the Subcommittee] presiding.
    Members present: Representatives Dingell, Shimkus, Buyer, 
Pitts, Myrick, Harman, Burgess, Blackburn, Barrow, Gingrey, 
Christensen, Barton (ex officio), Castor, and Sarbanes.
    Staff present: Kristin Amerling, Chief Counsel; Ruth Katz, 
Chief Public Health Counsel; Purvee Kempf, Counsel; Naomi 
Seiler, Counsel; Elana Stair, Policy Advisor; Allison Corr, 
Special Assistant; Greg Dotson, Chief Counsel, Energy and 
Environment; Melissa Cheatham, Professional Staff Member; 
Elizabeth Letter, Special Assistant; Earley Green, Chief Clerk; 
Mitchell Smiley, Special Assistant; David Cavicke, Minority 
Chief of Staff; Jerry Couri, Minority Professional Staff 
Member, Environment; Ryan Long, Minority Chief Counsel, Health; 
Krista Rosenthall, Minority Counsel, Oversight; Aarti Shah, 
Minority Counsel, Health; and Alan Slobodin, Minority Chief 
Counsel, Oversight.
    Mr. Pallone. I call the meeting to order. Today the House 
Subcommittee is having a hearing on The Environment and Human 
Health: The Role of HHS, and I will recognize myself for an 
opening statement.
    Mr. Shimkus. Mr. Chairman, would you yield for a minute?
    Mr. Pallone. Sure.
    Mr. Shimkus. Just parliamentary inquiry. Talking about 
slippery slopes. I am new in this. When is the Administration 
or anybody's reports due to us prior to a Congressional 
hearing? Do you know what the rules say?
    Mr. Pallone. I am not sure what you are asking me.
    Mr. Shimkus. When we ask people to testify before us, there 
is a requirement that they have their written submission so 
many days in advance or hours in advance. What might that be?
    Mr. Pallone. I do not know. You are going to have to ask. 
When witnesses testify, when are they supposed to have their--
we will have to find out for you.
    Mr. Shimkus. OK. The point being I think that obviously we 
got one submission at 8:30 last night, and we understand that a 
request to come before Congress is burdensome and you have to 
run around a whole bunch of traps. But it is really not fair to 
our staff who has to read the reports and try to do preparation 
for their Members. In essence, you are condemning them to be 
here from 8:00 until midnight in preparation for a hearing that 
starts at 9:30 a.m. And so this will not be the first time it 
has happened, it won't be the last time. But it is incumbent 
upon the loyal opposition to raise these issues which I would 
like to raise.
    Mr. Pallone. I mean, I will find out when it is supposed to 
be, but I think we should have them at least a day or so 
beforehand. Otherwise, it is difficult for you.
    Mr. Shimkus. Well, if you would yield, I know that we got 
one at 8:30 last night.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. All right. Well, I apologize for that, and we 
are going to proceed. But what we will do, we will try to make 
sure that in the future that we get them further in advance. 
And I will find out what the official deadline is. But even 
regardless of the official deadline, I think we should have 
them a couple days in advance. Otherwise, you can't review 
them. So we will follow up on that.
    Today is Earth Day, obviously a very important day intended 
to inspire awareness of and appreciation for the earth's 
environment. It is a day when we call on everyone to do a 
little something for the planet. It could be as simple as 
picking up litter or something more long-term, like planting a 
tree. And this is the 40th Earth Day, and I reflect not only on 
the environment but also on the nexus between the environment 
and human health. It is important to recognize that what we do 
to our planet can have a direct impact on our health. 
Initiatives to cleanse our waterways, protect our forests, 
clean up toxic waste sites not only have a positive 
environmental effect but they also benefit the health of all 
Americans. And because of this, the Subcommittee has convened 
today to discuss the work our federal health agencies are doing 
with respect to environmental health. Within HHS there are four 
main bodies that address environmental health issues, the 
National Institute of Environmental Health Sciences, the 
National Toxicology Program, the Centers for Disease Control 
and the Agency for Toxic Substances and Disease Registry. They 
are all here today to provide the committee with an overview of 
their efforts.
    Environmental health is defined by the World Health 
Organization as the aspects of the human body, human health and 
disease that are determined by factors in the environment, and 
this includes conditions like neurological diseases, cancers 
and cardiopulmonary diseases that can be caused by events 
ranging from lead in the drinking water to air pollution. And I 
know there are some challenges when it comes to linking 
environmental hazards with public health events, and I hope to 
learn more about those challenges today and perhaps even what 
we might be able to do about it.
    A few years back I was made aware of a high incidence of 
cancer in a town near several Superfund sites in New Jersey. 
New Jersey has more Superfund sites than any other state. And 
fearing a connection, the New Jersey Department of Health and 
Senior Services conducted an investigation into the issue. At 
the time, the agency found no statistical proof that the rates 
of cancer were higher in this particular neighborhood than in 
other areas of the State and could also not make a 
determination that the diseases were linked to the Superfund 
sites. So I understand that there are often data challenges 
when it comes to linking environmental events to public health, 
and I am eager to hear more about these and similar challenges 
today at this hearing.
    Questions such as how do the agencies look at the 
relationship between toxic sites and disease outbreaks and what 
are the barriers to making those determinations, these are the 
kinds of questions hopefully we can get some answers to.
    I am also eager to hear about the research that is 
currently being conducted on environmental health conditions. I 
have a facility in my district that has done a lot of work on 
this issue. The Center for Environmental Exposures and Disease 
run by UMD&J, the Robert Wood Johnson School of Medicine and 
Rutgers University is one of the grant recipients from NIEHS 
and is doing very exciting work on research, environmental 
health education and disease prevention, and I am curious to 
hear from the NIEHS about their priorities for the next few 
years and how you balance national priorities with research 
questions that might be more State-specific.
    And finally I am very interested in hearing more about how 
all three agencies work together to try and advance the field 
of environmental health.
    Again, welcome our witnesses. I know that you are doing a 
lot of very exciting work. Sometimes it may sound bureaucratic, 
but I want to tell you, when it comes to my state and my 
district, the work you do--you are called upon constantly. I 
know I call you on a regular basis to come to New Jersey to 
check out some of these links between toxic waste and health, 
which you know, is a major concern and should be a major 
concern for my constituents and I think all Americans.
    I yield to our Ranking Member, Mr. Shimkus, of Illinois.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Chairman Pallone. I appreciate this 
Subcommittee and remain active, but I currently continue to be 
disappointed that we aren't holding hearings on the 
implementation of the new health reform law.
    In my district, people aren't asking about if a healthy 
earth means healthier humans or if smokeless tobacco is bad for 
children. We know it is. People are asking questions on what we 
have read and being reported on the changes that will come now 
and in the future with the new health reform law. So why aren't 
we doing follow up? Was there a drafting error so children with 
preexisting conditions are not going to be receiving coverage 
immediately if possible? Is it true those currently in high-
risk insurance pools will be stuck paying higher premiums 
because they don't qualify for the new high-risk pools? Do they 
really need to be uninsured for 6 months to receive this 
coverage? If families with low wages are dumped into Medicaid 
because their employer opted to pay for coverage through the 
state exchanges, will they have access to the same coverage as 
those in the exchange? Can they see the same doctors? These are 
all questions that people are asking and questions that are 
being reported in the media. How about this one, for those in 
the individual market, are their premiums going to rise on 
average of $2,100 as stated by the CBO and reported in a recent 
New York Times article?
    The health reform law says penalties will occur if you 
don't have insurance coverage for at least 3 months in the 
year. Can someone cancel their coverage after 3 months and 1 
day and then wait until they get sick to repurchase coverage? 
Will that mean increases in insurance premiums for those who 
play fair? Are small businesses going to be able to afford to 
provide health insurance? Is just 12 percent of the small 
business population going to benefit in any way from the tax 
credits as reported by the CBO? Is it true that firms with more 
than 25 employees will get no tax credit at all? And for those 
few that qualify, if the credit is only available for 6 years, 
how do they afford healthcare costs beyond them in the future 
years?
    These are the questions my constituents are asking and 
questions we as members of the Health Subcommittee should be 
addressing because some of these problems we can fix now. We 
can pass a bill and rectify some of these problems we already 
know that exist on this healthcare bill.
    We were supposed to have Caterpillar, AT&T and others in 
front of the O&I Subcommittee to discuss their financial 
disclosures and burdens. Last week that hearing was quietly 
cancelled. Then next week this Subcommittee was going to 
address Medicare and Medicaid fraud. That has now been 
postponed.
    Chairman Pallone, I really do want to work with you on 
evaluating those provisions that we know are bad in this bill 
that we can fix. I know we are going to have numerous hearings 
on healthcare issues. I am here to represent my constituents of 
the 19th district in Illinois, and there is a high level of 
fear out there of the unknown, and I think our committee could 
do well in getting some of these questions answered.
    And with that----
    Mr. Buyer. Will the gentleman yield?
    Mr. Shimkus. I would yield.
    Mr. Buyer. When you mentioned that the O&I Subcommittee was 
cancelled, was that cancelled--part of that hearing, was it 
because these corporations are out there, they were talking 
about what they were going to have to mark down because of 
their cost in the accounting practices and they were going to 
challenge them. As it has turned out, what the companies were 
saying was absolutely true. Under the accounting practices, 
they are required as a public company to disclose as soon as 
they learn what their liability is, they must mark that down in 
that quarter. And so all of these publically traded companies 
who quickly did an assessment of what the cost would be, 
billions of dollars now are being marked down against earnings 
in this quarter. Is that not correct?
    Mr. Shimkus. That is correct. A lot of these were announced 
after the passage of the bill. I used actually one of these 
companies which was Caterpillar on the floor prior to the vote 
to talk about the cost that would incur. And I think the goal 
was to bring these CEO captains of industry in here and 
embarrass them, and I think what is the truth is, they were 
just following the SEC code.
    Mr. Buyer. Would the gentleman further yield?
    Mr. Shimkus. I would.
    Mr. Buyer. I notice this week Eli Lilly, which is a very 
strong corporate partner even in Indiana had to mark down their 
earnings around 11 or 12 cents and companies all over the 
country. So when they talked about the cost of this healthcare 
bill to carry that burden, in fact, it is true. It was a 
reality. So instead of facing the embarrassment, the Democrat 
majority cancelled that. Is that not correct?
    Mr. Shimkus. Well, you would have to talk to Chairman 
Waxman as far as his intent, but I do know that it was 
scheduled and it was cancelled.
    Mr. Buyer. Thank you.
    Mr. Shimkus. And I yield back my time. Thank you, Mr. 
Chairman.
    Mr. Pallone. Thank you. Next is the gentlewoman from 
California, Ms. Harman.
    Ms. Harman. Mr. Chairman, I have agreed to let Dr. 
Christensen go ahead of me.
    Mr. Pallone. OK. The gentlewoman from the Virgin Islands.

       OPENING STATEMENT OF HON. DONNA M. CHRISTENSEN, A 
       REPRESENTATIVE IN CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman, and thank you 
Chairman Pallone and Ranking Member Shimkus for holding this 
important hearing, and it is very appropriate that we are 
having it on Earth Day. And thank you, Dr. Birnbaum and Dr. 
Falk for joining our witness panel this morning.
    As chair of the Health Braintrust of the Congressional 
Black Caucus which has as its mission the elimination of health 
disparities, I have joined now with Jim Clyburn and his 
Environmental Justice Braintrust over the years on joint 
conferences around the country to increase the awareness 
especially in poor, rural communities and communities of color 
on a nexus between environment and human health. In fact, 
earlier this week I spent a day-and-a-half on environmental 
justice tour in South Carolina.
    Research has shown us that numerous environmental factors 
from biochemical hazards and water contamination to unhealthy 
land uses are among the factors that not only drive and sustain 
but exacerbate racial and ethnic health disparities. For 
example, environmental factors are directly linked as causal 
factors to some of the worst health disparity trends such as 
childhood asthma, cancer, incidents of mortality that we see in 
this Nation today. And it should come as no surprise. A 2006 
study revealed that racial and ethnic minorities and poor 
individuals are disproportionately more likely than whites and 
middle- to upper-income individuals to live near toxic waste 
facilities. The U.S. Department of Health and Human Services 
has long recognized the inextricable link between the 
environment and human health and has numerous agencies that are 
directly involved with addressing environmental health issues. 
I have worked with these agencies and offices in communities in 
my district, but in the last Administration changes were made 
and we lost a lot in follow-through. My community and I would 
imagine other communities were not as well served as before.
    So I look forward to this hearing with the National Center 
for Environmental Health, ATSVR, and the National Institute for 
Environmental Health Sciences and any other offices, where they 
stand today, how we work with EPA and other relevant agencies 
and how from assessments to services to research we are 
improving the health of people and communities by improving the 
environments in which too many of them are struggling against 
the odds to be well.
    I yield back my time.
    Mr. Pallone. We thank the gentlewoman. Next is the 
gentleman from Indiana, Mr. Buyer?
    Mr. Buyer. I will defer and take the time later.
    Mr. Pallone. Take the 8 minutes? OK. Thanks. Gentlewoman 
from Tennessee? Oh, I guess I am supposed to go back to the 
Democratic side. Gentlewoman from California, Ms. Harman.

  OPENING STATEMENT OF HON. JANE HARMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Harman. Thank you, Mr. Chairman, for holding this 
hearing. Welcome to our witnesses, and happy Earth Day. The 
40th anniversary of Earth Day should cause us, as you said, to 
celebrate the strides we have made in environmental protection 
and education and to focus on the road ahead.
    The earth has a long memory, and one of the results of 
years of profligate polluting are the hazardous waste dumps now 
designated Superfund sites. The residents of my Congressional 
district in Southern California have seen first hand the 
adverse effects such sites create and understand the very real 
risks to human health. We have been trying to clean up three 
Superfund sites that border my district and have affected our 
residents, particularly minority communities, as Dr. 
Christensen pointed out, for decades. They are called Del Amo, 
Montrose, and the Palace Verde Shelf. The Del Amo and Montrose 
facilities released substantial amounts of hazardous substances 
into the soil and groundwater including benzene and DDT. 
Montrose also dumped DDT through the sewer system into the 
Pacific Ocean, and this along with PCBs from other industrial 
sources created the Palace Verde Shelf problem that threatens 
marine life and human health through contaminated fish 
consumption. The Montrose site has been paved with temporary 
asphalt cap to protect workers and to prevent the spread of 
contaminated soils. Groundwater and soil cleanup plans are in 
progress.
    The Del Amo site, which I know very well, has mostly been 
redeveloped into an industrial park. The most contaminated 
section, the waste pits, have been fenced off in a so-called 
containment zone to prevent further spread into drinking water 
sources. Because hazardous materials from Del Amo and Montrose 
are comingled, these sites will be part of the same groundwater 
remediation effort, but it will take years.
    The Palace Verde Shelf cleanup effort is also in progress, 
and a coalition of local groups have done good work in reaching 
out to vulnerable communities to educate them about avoiding 
contaminated fish consumption. However, restoring the area to 
what it once was remains a monumental task, and EPA still 
considers the site to be one of the most contaminated in the 
country.
    I would like our witnesses to address their familiarity 
with these sites and whether they have studied their effects 
and more broadly hope that they will address what HHS is doing 
to inform the pubic about the potential adverse health effects.
    Thank you, Mr. Chairman, for holding this hearing. There is 
a lot to celebrate and to be sober about on Earth Day, and I 
yield back.
    Mr. Pallone. Thank you. Gentlewoman from Tennessee, Ms. 
Blackburn?

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman, and welcome to our 
witnesses.
    I will have to say that I am surprised again that this 
committee is holding a general hearing, this time on 
environmental health issues that, while they are important, 
they are not the pressing needs of the day. The link between 
environmental factors and health is more clearly illuminated by 
common sense, not Congressional oversight.
    Is it lost on anybody in this room that the recent 
healthcare bill signed into law is destined to restrict access, 
drive up costs and has so many unknown consequences that we are 
only starting to uncover the little gems that are hidden in the 
bill? I know my staff would appreciate sunshine on the status 
of their health insurance benefits and whether or not they are 
on the right side of the law because this law was so poorly 
written. The healthcare law has potentially left Members of 
Congress and their staff without health insurance. It is 
disappointing that OPM had to rule on this to validate our 
insurance as opposed to the law stating the intent explicitly.
    I would also appreciate hearing from the drafters of that 
fine piece of legislation as to why they and all other federal 
employees were exempted. What is good for one should be good 
for all. I think we can agree to that.
    The press continues to report the promises of lower health 
insurance premiums and the healthcare overhaul may not be. They 
may not take place. So could it be that the bill won't lower 
cost of insurance and increase access? Certainly there is no 
public option model that has done that, and you can look at 
TennCare in Tennessee and Massachusetts Universal Healthcare 
Plan to prove that point.
    I would also like to hear from our governors about the 
unfunded mandates on their states and how they are going to 
address the cost of that implementation. And what about the 
seniors who were told that if they liked their health coverage, 
they could keep it? We are going to have a lot of angry 
constituents this October when they learn that their Medicare 
Advantage plan is dwindling and that they will have to pick up 
the tab for drugs and medical devices indirectly due to new 
taxes that are placed on such items.
    Mr. Chairman, many pressing issues exist in healthcare 
today. This committee and the Nation would be better served 
focusing on new healthcare mandates rather than today's Earth 
Day hearing.
    I yield back.
    Mr. Pallone. Thank you. Chairman Dingell?
    Mr. Dingell. Thank you, Mr. Chairman. I want to commend you 
for holding this hearing. I do want to pause just briefly to 
observe. I am afraid the distinguished gentlewoman who just 
preceded me--or I have walked into the wrong hearing? I was 
under the impression that this was a hearing which related to 
the important matters of the connection between environmental 
factors and human health. If I am in error that I am in the 
wrong room here, I hope that somebody will please inform me.
    Mr. Shimkus. Will the gentleman yield?
    Mr. Dingell. I will be happy to yield if----
    Mr. Shimkus. You can tell by the audience that this is 
health and the environment, not the healthcare bill. Otherwise, 
we would have had a line outside stretching overnight. The 
issue is we have identified problems with the healthcare bill 
that need to be fixed----
    Mr. Dingell. Well----
    Mr. Shimkus [continuing]. And we ought to be addressing 
those versus talking about----

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. I want to thank the gentleman, and I want to 
tell him how much I appreciate his attempt to assist me. I do 
observe, however, that he is shedding more confusion upon me 
this morning, and it is rather early for me to undergo this 
kind of confusion.
    But having said that, Mr. Chairman, I want to continue by 
commending you for holding this hearing. It is important for us 
as a society to have better understanding of the connection 
between environmental factors and human health. Thirty-five 
years ago the United States had virtually no laws in place to 
protect the environment and human health. Private individuals, 
industry, governments could burn, dump or pump into the air or 
water or into the ground virtually anything with impunity and 
without concern as to the consequences to all of us or to the 
environment.
    Some of my proudest achievements during my service in 
Congress, apart from our legislative health victories which I 
am happy to see our Republican colleagues are noting, have been 
the part that I played in writing environmental protection 
statutes which were of great and landmark importance to our 
country. These laws weren't just victories just for the 
environment but they were victories for our health and well-
being as a Nation. Therefore, it is fitting that today, on 
Earth Day, we hear from the Department of Health and Human 
Services about their role in identifying and preventing health 
problems caused by our environment. Our society has made 
enormous strides because of research in this area. We now know 
of the dangers caused from contact with asbestos, and we now 
know that the elevated exposure to lead and mercury can create 
development problems for children. We also know that air 
pollution can aggravate asthma. This research has allowed us to 
take the appropriate legislative and societal actions to reduce 
illnesses caused by these toxins and others. Yet, there is 
still much more that we need to know and to learn in order to 
prevent avoidable illness and death due to environmental 
factors. According to the World Health Organization, 13 million 
deaths occur annually from preventable environmental causes.
    I want to thank our panel today, Dr. Linda Birnbaum with 
the National Institute of Environmental Health Sciences and the 
National Toxicology Program and Dr. Henry Falk with the 
National Center for Environmental Health and Agency for Toxic 
Substances and Disease Registry today. Too often we 
unfortunately only discuss these issues in response to some 
tragic event, an oil spill or toxic waste leak or something 
else that jeopardizes life or well being of our people. It is 
my hope that today's hearing will lead to a discussion about 
how the government can continue to proactively lead in research 
and programming that improves health and well being of the 
Nation through promotion of a healthy and safer environment.
    And again, I do want to welcome our witnesses, and I hope 
that they are not confused as I have been about the purposes of 
this hearing. So with that, Mr. Chairman, I thank you and yield 
back the balance of my time.
    Mr. Pallone. Thank you Chairman Dingell. I saw two young 
girls walk in here, and I was reminded that today is Take Your 
Daughter to Work Day. So good to see you here, and I hope it is 
interesting for you.
    Next is the gentleman from Texas, Mr. Burgess.
    Mr. Burgess. Thank you, Mr. Chairman. I am so anxious to 
get to the testimony of our witnesses I will waive an opening 
statement.
    Mr. Pallone. Thank the gentleman. He will have the extra 
time on questions.
    Next is the gentleman from Georgia, Mr. Barrow.
    Mr. Barrow. I thank the Chair. I cannot possibly improve 
upon the opening of the Chairman Emeritus, so I too will waive 
an opening.
    Mr. Pallone. Thank you. Gentlewoman from Florida, Ms. 
Castor?

  OPENING STATEMENT OF HON. KATHY CASTOR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Castor. Yes. Thank you, Chairman Pallone very much for 
calling this hearing today, and welcome to the witnesses.
    I am eager to hear you because nothing is more fundamental 
to families all across America than clean water and clean air, 
and it is vitally important that we understand the link between 
environmental factors and the health of our families. So I look 
forward to hearing what the agencies under HHS have to offer in 
protection and research and guidance, and this is critical. And 
we need more research. As you know, the EPA has tested 
approximately 200 of the more than 80,000 chemicals that have 
been on the market since the Federal Government began to 
regulate toxic substances 33 years ago. Of those tested, only 
five are now regulated. So we are dealing at the same time with 
an update to our outdated TOSCA law. The potential links 
between chemicals and environmental factors and the Nation's 
leading chronic illnesses sometimes remain a mystery, and they 
shouldn't. It is clear that rates of asthma, certain cancers, 
diabetes, premature births, heart disease and others have 
increased as the chemical industry has grown. In my community, 
in the Tampa Bay area in Florida, my neighbors have seen first 
hand over the years how the presence of toxic chemicals and 
environmental contaminants can tear apart communities and make 
people very sick and drastically lower property values.
    For example, in 2004 in Plant City, which is on the 
outskirts of Tampa, residents living in the vicinity of a plant 
began to notice strange cases of cancer, a real cluster, and 
gastroenterological issues in the community. After 
investigation, officials found levels exceeding state and 
federal standards of arsenic, boron, radium, lead and cadmium. 
The Florida Department of Environmental Protection linked the 
pollution from the plant to at least seven contaminated wells 
used for drinking water. After the contamination was 
discovered, the state had to begin providing bottled water for 
families living in the area.
    Families that lived in the area for years believed that the 
contaminants led to long-term health problems that weren't 
realized until they left the area, such as fertility problems 
for women who had lived near the plant as young girls.
    Also across the way in 2008, a factory in St. Petersburg 
was determined to be responsible for a plume of toxic chemicals 
that migrated to an elementary school and contaminated the 
ground water there. This time, last year after the pollution 
problem had been ongoing for 17 years, the factory submitted a 
plan to the Florida Department of Environmental Protection to 
finally clean up the contaminants around this facility.
    Experts find that areas nationwide which are affected by 
contamination of rare chemicals are largely communities of 
color and low-income communities unfortunately. You still have 
to deal in America with the issues of environmental justice. So 
I hope you will shed some light on that today.
    There are disproportionately high levels of exposure to 
toxic chemicals in these areas, and folks in these 
neighborhoods are getting sick at extraordinarily high rates. 
So communities and families need talented researchers like you 
and the folks that you work with to ensure that the air we 
breathe and the water we drink is safe, is not detrimental to 
our health.
    So again, thank you, Mr. Chairman, for convening this 
hearing, and thank you to Dr. Birnbaum and Dr. Falk for being 
here today. This is certainly a topic that we need to continue 
to learn more about.
    Mr. Pallone. Thank you. The gentleman from Georgia, Mr. 
Gingrey.

  OPENING STATEMENT OF HON. PHIL GINGREY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Gingrey. Mr. Chairman, thank you for holding this 
hearing today on the potential impact that environmental 
factors can have on the health of American patients.
    For over 30 years I practiced healthcare with a focus on 
OB/GYN. During those years, I saw firsthand the impact that 
infertility can have on patients and their loved ones. Data 
from the CDC's National Survey of Family Growth estimated in 
2002 that 7.3 million American women aged 15 to 44 had 
experienced difficulties conceiving or bringing a pregnancy to 
term during their lifetime, and additionally 2 million couples 
in the United States were listed as infertile, that is, not 
having successfully conceived during the previous 12 months. 
Although the focus of research and services in this country has 
traditionally been on women, fertility impairments may be just 
as common, they certainly are quite common, among men.
    To be frank, some of these cases are preventable. The 
Surgeon General's report on the health consequences of smoking, 
for instances, highlights numerous adverse reproductive effects 
of tobacco smoking, including infertility. In women, tobacco 
smoking is associated with a decreased probability of 
conception, ovulatory dysfunction and early menopause. However, 
these do not alone explain the reasons or solutions for 
infertility in this country, and therefore, I look forward to 
exploring these issues with the witnesses and with the 
committee.
    Additionally as an issue that is near and dear to my heart 
is our nation's infant mortality rate and how our country 
compares to others. Today we do not have a good understanding 
of how our numbers compare to other countries, so that data is 
not very consistent from state to state and region to region. A 
better understanding of infant mortality numbers in our country 
might give us a better insight into some of its causes, be they 
environmental factors or any other contributing issue. 
Everything from the products that we ingest, the conditions in 
and around our environment, and the medical procedures or 
treatments that we subscribe to can have an impact on the 
mortality rates of our infants. I believe that a consistent 
understanding of our own mortality rates here in the United 
States can give us a better understanding of how we compare 
internationally. We had that debate on the healthcare bill. And 
if such comparisons were possible, we as a Nation might learn a 
lot more about the contributing causes of infant mortality and 
better ensure that parents have the information they need to 
raise a happy and a healthy child.
    So with these thoughts in mind, Mr. Chairman, as I yield 
back, I look forward to hearing from our witnesses. Thank you.
    Mr. Pallone. Thank you. The gentleman from Pennsylvania, 
Mr. Pitts? Will waive? OK. I think all of our members have had 
a chance to do an opening statement, so we will move onto our 
panel and our witnesses. And I want to welcome both of you 
today. The way we work it, and you probably know, is we have 5-
minute opening statements and they are made part of the record, 
but you may in the discretion of the committee, submit 
additional statements, brief statements, in writing for 
inclusion in the record.
    Let me introduce each of you. To my left is Dr. Linda 
Birnbaum who is Director of the National Institute of 
Environmental Health Sciences and the National Toxicology 
Program. Welcome. And then there is Dr. Henry Falk who is 
Acting Director for the National Center for Environmental 
Health and the Agency for Toxic Substances and Disease 
Registry.
    I have to tell you that the ATSDR is a big deal in New 
Jersey. I often mention it, and it used to be years ago that 
people would say, well, what is that? But nobody says that 
anymore because you are always around, so we appreciate it.
    We will start with Dr. Birnbaum.

 STATEMENTS OF LINDA BIRNBAUM, DIRECTOR, NATIONAL INSTITUTE OF 
ENVIRONMENTAL HEALTH SCIENCES AND NATIONAL TOXICOLOGY PROGRAM, 
     AND HENRY FALK, ACTING DIRECTOR, NATIONAL CENTER FOR 
   ENVIRONMENTAL HEALTH AND AGENCY FOR TOXIC SUBSTANCES AND 
                        DISEASE REGISTRY

                  STATEMENT OF LINDA BIRNBAUM

    Ms. Birnbaum. Mr. Chairman and distinguished members of the 
Subcommittee, I am pleased to appear before you on the 40th 
anniversary of Earth Day to present testimony on the role of 
NIEHS in understanding the impact of environmental exposures on 
human health. My name is Linda Birnbaum, and I am the Director 
of NIEHS which is part of the National Institutes of Health, as 
well as Director of the National Toxicology Program, which is a 
cross-agency program involving NIH, CDC and FDA.
    NIEHS supports the full range of basic biology to human 
epidemiology to chemical testing. Our research goes from bench 
to bedside to public health. It provides information for 
policymakers who are responsible for decisions affecting public 
health and for the public who deserve to have the best 
information on how to prevent disease and dysfunction. We work 
closely with other federal agencies, especially CDC, FDA, EPA, 
OSHA and the Consumer Product Safety Commission and with 
impacted communities throughout our community-based research 
programs and outreach efforts required for environmental 
health, Superfund and children's grants. We collaborate with 
other NIH institutes on asthma intervention, cancer and autism 
studies.
    Environmental health science is advancing at a tremendous 
rate. Our understanding of chemical toxicity has been 
challenged by the new science of epigenetics, which is the 
study of changes in the packaging of DNA that influence how 
genes are expressed. Studies indicate that exposures that cause 
epigenetic changes can affect several generations. This new 
understanding heightens the need to protect people at critical 
times in their development when they are most vulnerable.
    Related to the field of epigenetics is the key concept of 
windows of susceptibility. Research shows that the 
developmental processes that occur at fetal and early-life 
stages are especially vulnerable to disruption from relatively 
low doses of certain chemicals. We first saw this in the case 
of lead which we learned decades ago could harm neurological 
development as the result of early-life exposure. This concept 
also applies to hormonally active agents that disrupt the 
endocrine system. For example, NIEHS and NTP are funding 
important studies to fill the gaps in our knowledge about 
biphenyl A, a widely distributed, high production compound with 
many uses, including plastics, food can linings, thermal paper 
and much more. The NTP determined that there was some concern 
about effects to the brain and reproductive system in fetuses, 
infants, and children exposed to BPA. We are now supporting an 
aggressive research effort to fill the research gaps in this 
area, especially concerning BPA effects on behavior, obesity, 
diabetes, reproductive disorders, development of prostate, 
breast and uterine cancer, asthma, cardiovascular disease and 
transgenerational or epigenetic effects.
    In our NIEHS Breast Cancer and Environment Research 
Program, co-funded with the NCI, researchers are investigating 
whether periods of susceptibility exist in the development of 
the mammary gland, when exposure to environmental agents may 
impact the breast and endocrine system that can influence 
breast cancer risk in adulthood.
    The joint NIEHS/EPA program of 14 Centers for Children's 
Environmental Health is expanding into new areas of research 
including birth defects, childhood cancer including leukemia, 
diabetes, pubertal development and the developmental basis of 
adult disease.
    Environmental exposures are being implicated in the obesity 
epidemic. NIEHS is supporting research on the developmental 
origins of obesity and the theory that environmental exposures 
during development play an important role in the current 
epidemic of obesity, and metabolic syndrome and diabetes. Thus, 
we need to start thinking about obesity not just in terms of 
genetics and lifestyle but also in terms of how early life 
exposure to these obesogenic chemicals might be setting the 
stage for us to gain weight later in life.
    Through our Superfund research program, we support research 
on state and transport of toxic substances and the environment, 
on new technologies to clean up hazardous waste and on the 
health effects of Superfund chemicals. This is a problem-
solving program that provides information and new technologies 
to help ATSDR and EPA and the impacted communities do better 
risk assessments and clean-ups.
    The NIEHS Superfund program features many examples of 
excellent environmental health research with real-world impact. 
For example, our Superfund grant to New York University 
includes an outreach program in New Jersey with a major goal of 
building a partnership between researchers and chromium 
impacted community members in Hudson County, the majority of 
whom are Hispanic or African American. Such a partnership 
provides a path by which our Superfund researchers can reach 
communities that are concerned about possible chromium 
exposure. It is a full partnership in which the community 
participates in the project from its design through its 
conclusion.
    With our rapidly increasing understanding of the subtleties 
of biological effects of environmental exposures, we can move 
forward into an era of a new kind of toxicological testing that 
is less expensive and time-consuming than our current methods 
and also gives us an improved understanding of the actual 
effects on humans. The NTP is laying the foundation for this 
testing paradigm in partnership with the National Human Genome 
Research Institute, EPA, soon to be joined by FDA. We are using 
quantitative high-throughput screening assays to test thousands 
of chemicals. The resulting data are being deposited into 
publicly accessible databases. Analyses of these results will 
set the stage for a new framework of toxicity testing.
    In summary, understanding the connection between our health 
and our environment, with its mixture of chemicals, diet and 
lifestyle stressors, is no less complex than understanding the 
intricacies of the human genome. At NIEHS, we remain committed 
to leading the evolution of the field of environmental health 
sciences to meet emerging public health challenges.
    Mr. Chairman and members of the Subcommittee, in 
celebration of Earth Day, I thank you for giving me the 
opportunity to present testimony on NIEHS' important research 
activities, and I would be happy to answer any questions.
    [The prepared statement of Ms. Birnbaum follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Pallone. Thank you, Dr. Birnbaum. Dr. Falk.

                    STATEMENT OF HENRY FALK

    Mr. Falk. Thank you. Good morning Chairman Pallone and 
Ranking Member Shimkus and members of the Subcommittee. My name 
is Henry Falk, and I am the Acting Director of the National 
Center for Environmental Health at the Centers for Disease 
Control in Atlanta, Georgia, and Centers for Disease Control 
and Prevention and the Agency for Toxic Substances and Disease 
Registry. I am pleased to appear before this committee on Earth 
Day to discuss CDC and ATSDR's work in addressing environmental 
health issues. At CDC and ATSDR, Earth Day is not just a day. 
We try to practice that all through the year. In addition to 
whatever special events we have for Earth Day, we have an 
ongoing Sustainability Program and a Chief Sustainability 
Officer. In our Go Green, Get Healthy Program we try to link 
environment and health, Go Green, Get Healthy initiatives, and 
they promote transportation choices such as biking, walking, 
car-pooling, public transit, making environmentally conscious 
food choices, conserving natural resources, operations in waste 
management and exemplifying sustainability, constructing all of 
our new buildings and facilities. I am very proud to say that 
our new toxicology and office buildings have lead certification 
gold and silver at CDC.
    In my dual role with NCEH and ATSDR, I have the opportunity 
to lead a highly dedicated group of scientists and public 
health practitioners working to identify and protect from 
environmental exposures to hazardous substances and seeking to 
provide answers on a wide variety of other issues related to 
human health and the environment.
    ATSDR is the principal non-regulatory federal public health 
agency responsible for addressing health effects associated 
with toxic exposures. The mission is to serve the public 
through responsive public health actions to promote healthy and 
safe environments and prevent harmful exposures. We collaborate 
with other agencies such as EPA and NIEHS. We focus on human 
health effects issues, try to be of service to all of the 
communities as Superfund sites, and I may say that in a prior 
stint as assistant administrator at ATSDR in 1999-2003, visited 
a number of sites in New Jersey such as the Tom's River site 
and actually with the prior Chairman of this Subcommittee, 
Congressman Bilirakis, spent a number of visits in Tarpon 
Springs, Florida, the Stauffer Chemical site with Congressman 
Bilirakis.
    The CDC's National Center for Environmental Health supports 
state and local governments through programs focusing on 
healthy homes, specifically related to childhood lead 
poisoning, environmental tracking and asthma prevention. We are 
trying to provide state and local health professionals with 
training and tools necessary to deal with the broad range of 
housing-related issues, particularly through our CDC Childhood 
Lead Poisoning Prevention Program. I was a pediatrician in the 
Bronx being trained in a residency program during the first 
Earth Day in 1970. Eight percent of children during the 1970s 
had blood lead levels greater than 10. Now it is 0.6 percent. 
So I think we have demonstrated a lot of progress during that 
time and hopefully continue to achieve that going forward.
    I want to mention also our Asthma Control Program which 
provides funds to state and local governments and territorial 
programs to conduct activities in support of asthma control. We 
work very closely with NIH, NIEHS, National Heart, Lung and 
Blood Institute, a combination of better treatment and better 
dealing with environmental factors together I think can really 
make a big difference with asthma.
    We have an extensive biomonitoring program and a toxicology 
laboratory directly measuring chemicals and metabolites in 
people's blood and urine, and I think that is very helpful 
going forward to EPA and others.
    So through our work with the environment, we strive to 
leave a legacy for our children. Many programs have a 
particular focus on children including the Childhood Lead 
Poisoning Intervention Program, ATSDR's site-specific work and 
childhood asthma interventions. I am a pediatrician by 
training, part of my personal commitment to improving the 
environmental health of our children. I have been actively 
involved in the past and more recently again with the 
President's Task Force on Environmental Health Risks and Safety 
Risks to Children which will research and address key 
children's environmental health and safety issues.
    Thank you for the opportunity to provide this testimony to 
highlight our work in environmental health. I look forward to 
answering any questions you may have. Thank you very much.
    [The prepared statement of Mr. Falk follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Pallone. Thank you, Dr. Falk. We will now take 
questions from the members, and I will start with myself. And I 
wanted to start with you, Dr. Falk.
    I mentioned in my opening statement that making a link 
between an environmental hazard and the disease outbreak can 
sometimes be challenging for health agencies. In fact, you 
mention in your testimony that Tom's River in New Jersey was 
one of the sites where you were able to make an association 
between an environmental situation and a disease cluster, but I 
can think of so many others, you know. The list is endless. I 
am thinking of the EPA administrator. She was recently at the 
Ramapo site, you know, where basically an old mine that Ford 
Motor Company, you know, deposited waste from their auto 
production and it is, you know, Native American, state-
recognized reservation where, you know, every time I go up 
there, that is all that people talk about, the health impacts. 
And just recently, in the last week or so, we had our Region II 
administrator down to the Raritan Slag site which is in my 
district where there is all this slag from a national lead 
processing plant was deposited to create a sea wall. And now 
the beach is closed and of course when I went and we had our 
community meeting there with the administrator. A significant 
number of people said, well, that has been here since 1970. 
There has been no impact on us, you know. We have been swimming 
in it all this time. Now you have made it a Superfund site last 
fall and, you know, a lot people didn't even believe that there 
was a problem from the health point of view. On the other hand, 
the regional administrator said it is probably one of the worst 
examples of, you know, potential health problems that she has 
witnessed in recent years.
    So there is all this controversy and I guess my question is 
why is it so difficult to prove that a given illness is a 
result of an environmental incident or situation and what are 
the barriers to making that determination? And is there 
anything we can do to improve the situation so it is easier for 
you to make those connections which oftentimes people think are 
obvious but don't necessarily come back that way when the 
ATSDR, you know, investigates it? ATSDR has been involved in 
all those sites that I mentioned.
    Mr. Falk. So you are asking a very challenging question. 
ATSDR is a service agency, and it is very--we have a difficult 
product to deliver because of the challenges that you 
mentioned. So you know the volcanoes are in the news lately 
because of the eruption in Iceland, and early on in my career 
at CDC I worked at Mount St. Helens. And there was a mountain 
of ash fall, and it was all very similar substance. It was 
right there on the ground. And many people developed asthma as 
a result of it, and it takes minutes to hours to develop the 
asthma reaction to the ash fall. It is easy to measure the ash, 
easy to measure the asthma and the connection occurs in hardly 
any time at all. So it is easy to establish a relationship in a 
setting like that.
    The challenge for us at many of the Superfund sites is that 
the exposures may have occurred many years in the past. There 
are many different chemicals. They are hard to measure. You 
can't always measure today what might have happened 20 or 30 
years ago. On the disease end, some of these chemicals may 
cause many different types of diseases, and although we have 
cancer registries, we don't have registries for neurologic or 
other kinds of diseases that you have mentioned, and the 
connections may take decades to develop. Early in my career I 
worked with vinyl chloride. The cancer cluster that occurred 
among workers took 32 years from when vinyl chloride was 
introduced commercially until liver cancers were evident in the 
people.
    So these are real challenges. And we can't change the 
circumstances. All these hazardous waste sites are what they 
are. They have occurred over time.
    I think the ways to improve this are one, better ways to 
more precisely measure exposures which is what we did in Tom's 
River with extensive effort of modeling exposure. I think 
better ways to actually type and characterize the different 
kinds of cancers and diseases. You know, people doing 
therapeutics for drugs are now looking at molecular markers on 
different types of cancers, and maybe there are ways of better 
characterizing the diseases that we have to work on so that we 
can better link more precise estimates of exposure and more 
precise estimate----
    Mr. Pallone. Well, let me ask you this because I know my 
time is running out. Is there anything that we can do? I mean, 
is it a question of resources? Is it a question of 
authorization? Is there anything that we in Congress can do to 
help you better accomplish, you know, this goal of making those 
links or being able to, you know, investigate health links at 
these various sites?
    Mr. Falk. I think the opportunities to actually improve the 
way we can estimate, measure and model exposures, the better 
way to track disease and to do more than just cancer and those 
kinds of things would actually help going forward in the 
future. We can't change the sites, but the better we can go 
forward at measuring, monitoring disease, measuring chemicals 
in people will enable us to do better linkages of those datum.
    Mr. Pallone. I would just ask you, my time is running out, 
but if you can follow up in writing on this I would appreciate 
it because I mean, I cannot tell you how many times since I 
have been in Congress or even when I was in the state 
legislature that we would bring in, and I hope I get the 
acronym right, ATSDR or the State Health Agency in the case of 
New Jersey. And it was so frustrating because, you know, 
people, that was the main concern they had was, you know, what 
were the health impacts. And then even when remediation is done 
and you know some of these sites now have been cleaned up since 
I have been around so long, and you know, people still ask, was 
it cleaned up to satisfactory rates or levels so that, you 
know, there isn't a health impact. Because oftentimes what 
happens is, you know, the sites are cleaned up. I am thinking 
of the chemical insecticide site in Edison which was the most 
hazardous waste site in the country and is now a recreation 
area, you know, like where people play ball. And I am not 
really getting any complaints there, I should say, anymore.
    But it is always a big issue for people in every state. 
What has happened so far? What is going to happen during clean-
up? What is going to happen after clean-up? Because oftentimes 
they are used for recreational purposes.
    Mr. Falk. I would be happy to follow up on that.
    Mr. Pallone. All right. Thank you. The gentleman from 
Illinois.
    Mr. Shimkus. Thank you, Mr. Chairman. If you would hold on 
those slides first, let me ask these questions.
    Folks, Dr. Birnbaum, Dr. Falk, can you tell me what percent 
of the earth's atmosphere greenhouse gases make up?
    Ms. Birnbaum. We are not focusing specifically on those 
issues, but we know the greenhouse gases that exist can have 
adverse impact on the health----
    Mr. Shimkus. But you don't know the percentage?
    Ms. Birnbaum. I do not know the percentage.
    Mr. Shimkus. OK. The answer is 2 percent of the earth's 
atmosphere is greenhouse gases. Ninety-eight percent is 
nitrogen, oxygen, argon and other gases. Of that 1 to 2 percent 
of greenhouse gases, do you know what makes up the largest 
percentage? Ninety-five percent of that 1 to 2 percent is water 
vapor. Of the 1 to 2 percent of the greenhouse gases that make 
up the earth's atmosphere, can you tell me what percentage 
carbon dioxide is?
    Ms. Birnbaum. No.
    Mr. Shimkus. It is 3.62 percent. Now of this 3.62 percent, 
can you tell what makes up the largest percentage of carbon 
dioxide emissions in the earth's atmosphere? No? The answer is 
nature makes up 96.6 percent of all carbon dioxide emissions.
    How about the percentage of carbon dioxide emissions from 
humans? If you do simple math, that is 3.4 percent. So humans 
overall contribute to any greenhouse effect to something like 
.28 percent of the earth's atmosphere. If we would put the 
slides up?
    [Slide]
    Mr. Shimkus. They are probably hard to see from there, but 
the first one has the earth's atmosphere and the little blue 
slice is greenhouse gases, just greenhouse gases.
    [Slide]
    Mr. Shimkus. The second slide is just the greenhouse gas. 
So you take that blue and that is magnified by the blue circle, 
the red part is carbon dioxide, which is 3.62 percent.
    [Slide]
    Mr. Shimkus. So then you take that red slice and you put it 
into the big circle next to it, 96.6 percent of that is nature, 
3.4 percent is humans. So 3 percent of 3 percent of 1 percent 
is the human involvement in the climate change carbon dioxide 
debate.
    How do you all define hazardous in your research? Or do you 
when you do research on it? I mean, I am not diminishing the 
great stuff we have done on lead paint and stuff. When you are 
doing your research and you are trying to find something in the 
groundwater or in the earth, what is hazardous? What compels us 
to act? Dr. Falk?
    Mr. Falk. So when we think of things as hazardous, we are a 
health agency, and we are thinking of things that have 
potential impact on health.
    Mr. Shimkus. Right. So I mean, is there like a certain 
percentage or certain--it probably depends on the element, 
right?
    Mr. Falk. Yes.
    Mr. Shimkus. And how much is ingested by the individual, is 
that correct?
    Mr. Falk. Right. And sometimes we have much better 
information on the relationship disease. Sometimes we are 
dealing with threats and risks and----
    Mr. Shimkus. And that can change based upon----
    Mr. Falk [continuing]. Dealing with probabilities over----
    Mr. Shimkus [continuing]. As science and research 
continues.
    Mr. Falk. Sure.
    Mr. Shimkus. We can get more information, and there may be 
other contributing things that we don't know that work 
together. Can anyone tell me how much carbon dioxide is 
hazardous to human health in parts per million? There is a 
federal standard for that.
    Mr. Falk. And we are not the ones who set that and----
    Mr. Shimkus. But as a federal agency that does set that, do 
you know what that number is?
    Mr. Falk. I think that these are issues that are under 
discussion. I do not know the exact number.
    Mr. Shimkus. My point is I am trying to tie public health 
to other agencies. The answer is OSHA, which is a minimum 
standard, is 5,000 parts per million is hazardous to human 
health. Now, do you how many parts per million of carbon 
dioxide most of it, 96 percent of it, naturally occurring is in 
our atmosphere? The answer is 350 to 390 parts per million. So 
if 5,000 parts per million is hazardous to human health by OSHA 
standards and the atmosphere has only 350 to 390 parts per 
million and that is what is viewed as hazardous, and 96 percent 
of that is naturally occurring, wouldn't it be more a focus on 
us trying to stop the natural occurring carbon dioxide carbon 
emissions versus the man-made carbon emission, a cost-benefit 
return?
    Mr. Falk. Yes, if I may, maybe I could take one moment just 
to describe our role.
    We are not among the agencies like NOAA and EPA that are 
actually trying to do all these atmospheric calculations and 
doing the modeling that would actually predict and model 
climate change. What we are focused on at CDC and in our 
program is understanding that there are significant concerns 
about this. We are trying to support state and local health 
departments to assess potential vulnerabilities, to actually 
measure potential health effects that might be of concern and 
to think about ways to deal with it.
    Mr. Shimkus. Right, and I appreciate that. This is our only 
chance, again, as the minority to address issues. It is Earth 
Day. Climate change is--I mean, the Senate is going to raise 
energy taxes in their proposal coming out today. If we go to 
the last slide, the last one, the connection is this.
    [Slide.]
    Mr. Shimkus. The EPA has said that man-made carbon dioxide 
emissions is hazardous or endangers the public health. Now, you 
all know the ramifications and issues of public health. Many of 
us addressing the facts of the atmosphere, the amount of carbon 
dioxide is naturally occurring, 96 percent, the miniscule 
amount that is on this next slide, that is just of the carbon 
dioxide emissions. Now go to the middle one.
    [Slide.]
    Mr. Shimkus. That little square goes up to the top. That is 
the perspective of the entire atmosphere and the carbon dioxide 
emissions and the man-made which is 1/3 of a 1/3 of a 1 
percent. So we have to have our agencies talking, especially if 
they are going to make the claim that man-made carbon dioxide 
emissions endangers public health. And it is so miniscule, it 
is not even a blip in the atmosphere. This is on Earth Day, Mr. 
Chairman, and so this is the issue we wanted to address, and I 
yield back my time.
    Mr. Pallone. Thank you. The gentlewoman from Florida, Ms. 
Castor.
    Ms. Castor. Thank you, Mr. Chairman. You know, when it 
comes to clean water and clean air and families all across the 
country just wanting the best for their kids and their parents 
and grandparents, it is striking to hear the stories here. You 
know, there is not a colleague here that didn't have a story 
from back home of some contaminated neighborhood or a Superfund 
site. You all brought up other examples in your testimony, and 
you know, it is difficult to pick up the paper every day and 
not see some other chemical contamination in a community that 
is causing health problems.
    So when I think of folks back home and when they have 
questions and they see that some of their neighbors are having 
serious health effects, and maybe they live near a factory, it 
raises the question of what is that interaction with you all? I 
mean, I want to ensure that the environmental cops on the beat 
and the researchers really talk with local communities and 
neighborhoods. And maybe you could go through how the Agency 
for Toxic Substances housed within the CDC and the National 
Toxicology Program housed at the National Institute of 
Environmental Health Sciences at NIH connect with local 
agencies and communities and down to the neighborhood level to 
get to the bottom of chemical contaminants in communities and 
potential health risks and how can we further build those 
connections between your agencies and local health agencies and 
communities.
    Mr. Falk. Maybe to start, at CDC especially, and it is just 
not in the area of environment but broadly, whether it is 
infectious diseases or occupational health, we work very 
closely with state and local health departments. It is probably 
the most significant working relationship at CDC. So there is 
placement of CDC staff in state health agencies, constant 
planning with the organizations for the state and local health 
agencies and very frequent interaction opportunities to inter 
act with them.
    So yes, the state and local health departments are the 
front line, and we try to be as supportive as we can working 
with them, and depending on the complexity of the problem, you 
know, there will be additional federal resources that would 
actually help.
    At ATSDR, we actually have a cooperative agreement program 
with 30 different state health departments that have 
significant numbers of Superfund sites. We provide support to 
those state health departments to hire professional staff that 
they could otherwise not have to deal with toxicological 
questions, environmental health questions, specifically related 
to Superfund sites. So we do have 30 states where we work 
directly through staff that are hired through the cooperative 
agreement program with ATSDR.
    So those are our programs working with state and local 
health people, and it is very important to actually have those 
people on the ground close to the communities where people have 
these concerns. But also we try to work very extensively across 
the Federal Government so we can do maximum benefit in terms of 
helping people. We work very closely with EPA, for example, at 
Superfund sites. We have ATSDR staff imbedded in the EPA 
regional office where they have their Superfund division so 
they can work closely together. We work very closely with our 
colleagues at NIEHS, and as Dr. Birnbaum will tell you, they 
are doing a lot of cutting-edge science on identifying what 
these chemicals can do, and our hope is to learn as much as we 
can from Dr. Birnbaum and be able to apply that local 
situation, utilize that to help state and local departments. So 
that is a very important working relationship for us.
    Ms. Birnbaum. So I will pick up on the relationship between 
ATSDR and NIEHS. As one of the examples of what we do, ATSDR 
actually sits as a member of the executive committee of the 
National Toxicology Program and helps us in deciding which 
compounds, which kinds of chemicals we should study, how we 
should study and what it means. Also on the executive board of 
the NTP sits EPA, OSHA, CPSC, National Cancer Institute----
    Ms. Castor. Let me ask you. Put yourself in the place of a 
neighborhood then that, you know, maybe there has been some 
spill in the community or there is a factory and they are 
seeing some cases of cancer or in maternal health there have 
been serious issues. Give us some real-world advice on how 
right at the community level folks have the concerns that there 
is something in their water, there is something that they are 
breathing in the air, how they can--what steps do they need to 
take and then where you all play a role.
    Ms. Birnbaum. Well, in that specific example, for example, 
we have 14 Superfund research centers which are grantees 
programs throughout the country. These centers have a community 
engagement program and work very closely with the community and 
with for example the state departments of health in order to 
identify and deal with clean-up issues. We have these types of 
community engagement programs in all of our children's health 
centers, in all of our breast cancer centers and in all of our 
environmental core centers. In addition, for example, I go out 
and hold community outreach meetings in different parts of the 
country, especially in areas where there is a great deal of 
concern about the environment. So I held one, for example, at 
Rutgers in the community last fall. I held one, for example, 
recently in Milwaukee which is an area of the great Rust Belt 
and huge concerns. I just got back from holding one in West 
Harlem in New York City to deal with and understand the 
concerns of the community. When we have issues of concern for 
example at a specific hazardous waste site, that is 
specifically the territory of ATSDR, and we work very closely 
with them. And we serve on some of their boards to help 
understand what are the chemicals, how can we communicate this 
information, and then more importantly, what we do is we 
develop methodologies to help remediate the problem. So we have 
actually developed, for example, little nanotechnology, 
nanoparticle impregnated discs that can actually remove 
volatile organic compounds from groundwater. We have dealt with 
issues, for example, of mine tailings contaminated with arsenic 
or other metals where you actually use the phytoremediation 
approach and plant certain kinds of--in the desert it is 
brush--to keep down the mine tailings so they don't blow around 
and expose people.
    So that will be the kind of thing that is NIEHS' and NTP's 
responsibility, to respond. We take nominations not only from 
other federal agencies but also from the communities at large 
about the things that concern them, and they enter our toxicity 
testing program as well.
    Mr. Pallone. Do you want to add to that? I know we are 
about 2\1/2\ minutes over, but I would like you to finish 
answering the question.
    Mr. Falk. I was only going to say that for us being 
involved in those communities when it is important is actually 
very essential. As Chairman Pallone has said, we don't always 
have all the answers but being able to be open, transparent and 
straightforward about it. So I have only been acting in this 
position for a short time, but in my previous stint at ATSDR, I 
tried to do a public meeting every month, and I tried to go to 
the most contentious ones so that we would get the rest of our 
staff engaged in those communities. And I think it is very 
important to be as engaged and open as possible.
    Mr. Pallone. I would certainly agree with that. Thank you. 
Our Ranking Member of the Full Committee, Mr. Barton, from 
Texas.
    Mr. Barton. Thank you, Mr. Chairman. Most of my questions 
are going to be directed to Dr. Birnbaum. Was your agency 
involved with the White House and the EPA on the analysis that 
led to the endangerment finding of CO<INF>2</INF>?
    Ms. Birnbaum. No, we were not.
    Mr. Barton. Why not?
    Ms. Birnbaum. Our mission is to study the health effects, 
and the World Health Organization in 2000 estimated that there 
were over 160,000 deaths a year from increases in climate 
change. We know that by some immediate mitigation of some of 
the things like air pollution we can have immediate tremendous 
benefits in terms of reducing the mortality and the illnesses 
associated, for example, with air pollution associated with 
climate change.
    Mr. Barton. Well, I will be honest, I am stunned. I know 
you are telling the truth, so I am not stunned that you are 
telling the truth, but your mission statement says NIEHS, broad 
focus on environmental causes of disease make the institute a 
unique part of the NIH. And then over here it says under the 
subtopic, climate change and human health, climate change and 
the actions taken to address it will have significant effects 
on human health. NIEHS is taking a lead among federal agencies 
to understand the health effects of climate change and to 
identify who may be most vulnerable.
    We have this major endangerment finding that has huge 
consequences for the American economy, and the institute at NIH 
that is responsible for examining those causes is not involved 
at all. I mean, I don't understand that.
    Ms. Birnbaum. OK. I would like to clarify. We have taken 
the lead role across the Federal Government in helping to 
organize the development of a white paper which calls for 
basically a research agenda on the understanding of what the 
research should be to understand the health impacts of climate 
change. EPA was involved but not the group that does the 
endangerment findings. But EPA was involved along with CDC, 
NOAA, Department of Transportation, Department of Agriculture 
and others in the development of this document which lays out 
in a usable manner the various type of health impacts that can 
be induced by increase in the climate change, many things that 
have been identified by the World Health Organization.
    Mr. Barton. Well, let me ask you. You are a professional 
toxicologist, I believe. Is that correct?
    Ms. Birnbaum. Yes.
    Mr. Barton. So I mean, you know poison. Is that correct?
    Ms. Birnbaum. I hope it is correct.
    Mr. Barton. I am not saying you cause poison, I am just 
saying you know it. Is CO<INF>2</INF> a poison?
    Ms. Birnbaum. Well, at very high concentrations we know at 
CO<INF>2</INF> can actually cause death, but that we are 
talking about concentrations much, much higher than the kinds 
of concentrations for which the concern----
    Mr. Barton. I mean, if I drink a Coke, I drink 
CO<INF>2</INF>, don't I?
    Ms. Birnbaum. Absolutely. CO<INF>2</INF> is a natural 
product, as Mr. Shimkus has mentioned.
    Mr. Barton. So I mean, in the classic sense, the average 
person would identify as a poison, CO<INF>2</INF> is not a 
poison?
    Ms. Birnbaum. Paracelsus taught us in the 1500s that 
poisons are a matter of both dose and timing and----
    Mr. Barton. Does CO<INF>2</INF> cause cancer? Is there any 
evidence that CO<INF>2</INF> is a carcinogen?
    Ms. Birnbaum. Not that I know of.
    Mr. Barton. OK. And I don't know what the temperature of 
liquid CO<INF>2</INF> is, but if CO<INF>2</INF> that we put in 
a pipeline, there are CO<INF>2</INF> pipelines, if there was a 
rupture in the pipeline and I was standing by the rupture and 
all the CO<INF>2</INF> came out of that pipeline and I was 
exposed to it, would that cause any kind of a health effect on 
me?
    Ms. Birnbaum. It would depend on the concentration. It 
could put you to sleep and eventually in fact----
    Mr. Barton. I mean, it could suffocate me, I guess, and 
prevent oxygen----
    Ms. Birnbaum. It could suffocate you. In fact----
    Mr. Barton. But if I am just exposed to it, it wouldn't 
impact my health, would it?
    Ms. Birnbaum. Low concentrations would not impact your 
health individually.
    Mr. Barton. So in any normal context, CO<INF>2</INF> is not 
a danger to me as a person?
    Ms. Birnbaum. We are producing and exhaling CO<INF>2</INF> 
ourselves all the time.
    Mr. Barton. Exactly.
    Ms. Birnbaum. Some of the issues about, for example, 
greenhouse gases that directly affect human health are things 
like, for example, black carbon which not only raises, you 
know, increases the temperature but also for example has 
immediate impacts on human health. And we know that elevated 
particulate matter, for example, in the air is associated with 
increased level of illness, cardiovascular disease, pulmonary--
--
    Mr. Barton. But CO<INF>2</INF> is not particulate matter.
    Ms. Birnbaum. No, I am talking about other kinds of 
greenhouse gases.
    Mr. Barton. My time is expired, Mr. Chairman. I just think 
it is unusual that the agency that is responsible for 
researching and examining the environmental consequences of 
climate change wasn't involved in the endangerment finding. And 
I think it is also somewhat enlightening to know that as we 
normally define a hazardous material or poison, that 
CO<INF>2</INF> is not one. And I want to thank you for giving 
an honest answer. I won't say it is refreshing because 
everybody is supposed to be honest, but it is comforting. I 
wish you the best, each of you the best in your agencies.
    Ms. Birnbaum. Thank you.
    Mr. Barton. Thank you, Chairman Pallone.
    Mr. Pallone. Thank you. I just found out you have an 
engineering background. I didn't know that.
    Mr. Shimkus. I do. Old engineering. I am still certified by 
the State of Texas. I don't use my certification.
    Mr. Pallone. All right.
    Mr. Shimkus. I don't want to endanger human health by using 
that certification.
    Mr. Pallone. Thank you. The gentleman from Maryland, Mr. 
Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I appreciate it. I 
apologize for coming in late. I did look at the testimony that 
you submitted, and Dr. Falk, I just wanted to ask you a 
question. I am the author here of a piece of legislation called 
the No Child Left Inside Act which is an effort to promote 
environmental education and in particular, integrate outdoor 
education and outdoor opportunities for young people across the 
country as part of developing environmental literacy. We have 
had hearings which testify to the instructional benefit of this 
kind of education to the economic opportunities through career 
paths that are formed when young people are exposed in that way 
to obviously the benefit of raising their awareness of the 
environment, which helps all of us. But there was also very 
strong testimony about the public health benefit of getting 
children outdoors more active and really integrating that into 
the instructional program and also then modeling for parents 
and for partnering with parents and families how you just 
promote an active and healthy lifestyle.
    And so I was intrigued by this healthy community design 
concept that CDC is developing and strengthening, and you gave 
examples of safe routes to school programs and described them 
as safe opportunities for physical activity as they go to and 
from school. And I just wondered if you could speak to that a 
little bit more. I have talked to some of the folks in school 
construction, for example, about integrating into the future 
design of schools and renovations of schools the concepts of 
outdoor classrooms and other opportunities for students to kind 
of take ownership of the environment in the immediate vicinity 
of their school and so forth. And I was just curious your 
perspective on the extent to which an effort like No Child Left 
Inside promotes that kind of outdoor educational opportunity 
can align with the healthy community design approach that CDC 
has developed.
    Mr. Falk. I think it is a very strong connection with what 
you raised and kind of what we are thinking.
    You know, there are traditional environmental issues such 
as specific chemicals and how they affect people, but 
increasingly as we see the environment broadly, the impact of 
how the environment has been built, changes that have occurred 
over time, children's ability to be out and do things has 
really been impacted tremendously by how we have structured our 
world over the last 10, 20, 30 years. And I used to walk to 
school 30 minutes every day. My children never dreamed of that.
    So we think it is very important to actually look at how we 
have designed our homes, our communities, our schools and how 
we can think about these in a way that would promote healthy 
behaviors, as well as an appreciation of the environment. So 
Safe Routes to School, we think about that. We think about 
walking, biking trails and ways in which people can enjoy the 
outdoors. And I mentioned also in testimony the President's 
Task Force on Children's Environmental Health. There will be an 
opportunity to actually really discuss these issues and to be 
able to make further advances in these efforts, and you are 
very correct that education is a very important part of that, 
both the environment of the schools itself but what we are 
actually teaching children about their environment and the 
outdoors.
    So that is a very important issue to us, and I hope that we 
are receiving--well, in the President's budget for fiscal year 
2011, there is an element for community design, and I know that 
issues related to education and the environment, health impact 
assessments of the environment are all very important to us.
    Mr. Sarbanes. Well, that is great to hear. I mean, in a 
sense, if we can inculcate as the norm this idea of getting 
kids outdoors, we don't want to have a situation of, you know, 
they are all dressed up with no place to go, right? And so the 
healthy community design will help ensure that when they are 
ready to go out into that outdoors and engage, that we have 
designed those opportunities in a way that really maximizes 
what is available to them.
    Mr. Falk. I think I also mentioned in testimony that last 
week at the White House there was the Conference on America's 
Great Outdoors which I think deals more broadly with 
conservation and the broader outdoor environment. But I think 
that is another avenue for bringing together federal agencies 
to actually focus on the outdoor issues.
    Mr. Pallone. Thank you. Next is the gentleman from Texas, 
Mr. Burgess.
    Mr. Burgess. Thank you, Mr. Chairman. Dr. Falk, you 
mentioned when you were discussing with Mr. Pallone a lack of 
disease registries, specifically those covering neurological 
diseases. There is a bill that has been introduced, H.R. 1362, 
to create a registry for MS, Parkinson's and other neurological 
disorders. Can I assume then by your answer to Mr. Pallone's 
question that you are in support of that and you would 
encourage Chairman Pallone to bring that bill to the 
Subcommittee for a markup? The witness answered yes for the 
record.
    I am going to ask a series of questions that may seem off-
topic on Earth Day, but we get so little chance for oversight 
of federal agencies on this committee, and it is really a shame 
because this committee should be the primary committee for 
oversight, perhaps not this Subcommittee but the Subcommittee 
on Energy and Commerce.
    But let me ask a couple of questions related to, Dr. 
Birnbaum, Title 42, salaries and Title 42, appointments. Are 
you familiar with those?
    Ms. Birnbaum. We have several.
    Mr. Burgess. An it seems that our committee staff has 
received information from inside the institute that the 
National Institute of Environmental Health may not be using 
Title 42 special pay mechanisms according to the regulations 
and guidelines. Now, as I understand Title 42 regulations, they 
allow you to pay outside of the traditional pay guidelines for 
someone with special expertise who will provide special 
services, is that correct?
    Ms. Birnbaum. It is outside of the regular, normal GS pay 
scale and requirements, and it is a very special program and it 
is a very complex program with many different sub-programs 
within it.
    Mr. Burgess. And typically, though, those individuals who 
are hired under Title 42 would go through a review process, a 
peer review process, to receive that designation?
    Ms. Birnbaum. That is my understanding since I have been at 
the institute. You know, I have been there for 15 months now. 
Every hire that might be a Title 42 goes through extensive 
hiring process that not only goes through processes at our 
institute but goes through central panels at NIH.
    Mr. Burgess. How many hires under Title 42 provisions in 
the last 15 months? Would you be able to put a number to that 
or is that something you would need to check and get back to us 
on?
    Ms. Birnbaum. I would have to check and get back to you, 
but it has been very few.
    Mr. Burgess. Few like under 12, few like under 50?
    Ms. Birnbaum. Definitely way under 12.
    Mr. Burgess. OK. But again, there is at least a perception 
and it comes from the NIEHS that it may be more of a routine 
practice than something that is used under exceptional 
circumstances, and while that may be an internal problem within 
the institute, it is something that should interest members of 
this committee that the Title 42 provisions are being 
appropriately applied and the conditions are being followed.
    Ms. Birnbaum. I will be happy to look into it, but I didn't 
know that this was a concern since I have been at the 
institute.
    Mr. Burgess. Are you approving Title 42 conversations for 
higher salaries based on job title or does that require a pay 
committee to provide a recommendation?
    Ms. Birnbaum. The pay committee has to provide 
recommendations, and there is a very extensive documentation 
that is required.
    Mr. Burgess. Let me just ask this question. Are you 
employed under Chapter 42 provisions?
    Ms. Birnbaum. Yes, all institute directors are.
    Mr. Burgess. Can I ask what your salary is?
    Ms. Birnbaum. I guess so.
    Mr. Burgess. I would ask what your salary is.
    Ms. Birnbaum. It is $230,000 a year.
    Mr. Burgess. OK. And prior to coming to the National 
Institutes of Health, public records of your salary at EPA, 
$158,000 according to what I have been able to find. Is that 
accurate?
    Ms. Birnbaum. That sounds right. I was in the senior 
executive service.
    Mr. Burgess. Now, in March, Director Francis Collins--and I 
have the absolute utmost respect for Dr. Collins and I think he 
is the right man at the right time in the right place--he 
stated that the Obama Administration has made it clear that 
cancer and autism ought to be priorities for medical research 
and that we totally agree, we meaning Dr. Collins and the NIH. 
Now, currently, for issues related to climate change, what is 
the funding level?
    Ms. Birnbaum. It is a very complex issue. One of the 
analyses suggests that maybe at all of NIH as much as I think 
$300 million. Others suggest it is only about $1.5 million. And 
it depends upon whether you count the research that might be 
related to effects of climate change but wasn't directly tied 
to it, that is the first figure, versus the studies that have 
just been, most of them just recently initiated with funding 
through the stimulus package where we actually ask for grants 
that would directly look at the relationship.
    Mr. Burgess. Yes, we will get to the stimulus package in 
just a second if I have time. My figure actually falls in 
between those two that you gave, so it must be accurate, $200 
million. But currently the figure that I have for autism is 
$188 million. Is that a correct number?
    Ms. Birnbaum. And that is for the entire NIH. That sounds 
like it is in the ballpark.
    Mr. Burgess. So Dr. Collins said the highest priority is 
cancer and autism for medical research, yet funded science for 
climate change actually outstrips that for funding for autism 
at the present time.
    Ms. Birnbaum. As I said, part of that has to do with the 
way that our system counts work, and when it includes the $200 
or the $300 million figure it is counting all the work for 
example that might be related to the impacts of air pollution, 
the impacts of heat, the things that can happen when infectious 
disease patterns change as the climate rises and so on. But 
many of those were not directly related to climate change.
    Mr. Burgess. On the stimulus bill which you referenced a 
moment ago, my figures are that your institute received $187 
million from the American Recovery and Reinvestment Act. How 
have these funds been allocated to climate change related 
activities?
    Ms. Birnbaum. The climate change activities that we funded 
were actually funded through the common fund that the director 
of NIEHS had held back $200 million from the amount, the rest 
of the $10.4 billion that was allocated, and that was what was 
called the Challenge Program. And through the Challenge Program 
NIEHS funded two grants, one dealing with the direct effects of 
heat waves on health and one dealing with the increase in 
forest fires and what that would do in terms of cardiovascular 
respiratory disease. The total amount of challenge grants that 
were funded on climate change under the Challenge Grant Program 
was about $1.3 million in fiscal year 2009.
    Mr. Burgess. Can you tell us how many jobs were created 
under the climate change funding that was provided to your 
institute?
    Ms. Birnbaum. I can get you that information. Under our 
$187 million, we know that at least 400 jobs, new jobs, were 
created.
    Mr. Burgess. And of the $38 million total that was received 
by NIH, how much of that was received by your institute, 
specifically for climate change activities?
    Ms. Birnbaum. Well, as I said, we funded two grants under 
climate change that came from this $200 million. So it is a 
very small percent of the total budget. I think one thing that 
is important is this white paper, this cross-agency white paper 
that has just been released which identifies and provides a 
roadmap for the research needs related to health impact of 
climate change will help us as we go forward to better 
understand the health impacts.
    Mr. Burgess. Again, just for the record, tell me the number 
of jobs that your institute created as a result of the climate 
change funding in the stimulus bill?
    Ms. Birnbaum. I can't give you exactly the number, but it 
would be--I don't have that number. I know how many the whole 
$187 million created, and that was approximately 400 new jobs. 
Now, those numbers are based upon what our grantees tell us the 
number of jobs that they created.
    Mr. Burgess. So $.5 million a job?
    Ms. Birnbaum. That would be--that does not include, and I 
think it is important to realize, all the jobs that in 
addition, jobs that weren't lost, for example, that would have 
been lost.
    Mr. Burgess. OK, so we are in the created or saved category 
now that Vice President Biden talks about. If you would get us 
the number, if you could. If you would get us that number from 
your institute----
    Ms. Birnbaum. I will get you----
    Mr. Burgess [continuing]. I think that would be helpful----
    Ms. Birnbaum [continuing]. For our two climate change 
grants how many jobs the grantees told us that that created.
    Mr. Burgess. That would be great. Thank you, Mr. Chairman. 
I will yield back.
    Mr. Pallone. Thank you. Gentleman from Georgia, Mr. 
Gingrey.
    Mr. Gingrey. Thank you, Mr. Chairman. Dr. Birnbaum, how 
important do you think it is to base policy decisions on strong 
science? Let me repeat that. How important do you think it is 
to base policy decisions on strong science?
    Ms. Birnbaum. I think strong science input into policy is 
extremely important.
    Mr. Gingrey. Dr. Falk.
    Mr. Falk. I can't even imagine the reverse, basing policy 
decisions on poor science. I mean, I totally agree with that 
statement.
    Mr. Gingrey. Recently the Yucca Mountain Nuclear Waste 
Repository was cancelled. Do you know, either one of you, do 
you know of any federal health-based science research studies 
on which this decision was based or any safety studies? Are you 
aware of either?
    Mr. Falk. I don't think that we at CDC were ever engaged in 
that process on Yucca Mountain, so I don't actually know that 
in any kind of detail.
    Mr. Gingrey. Dr. Birnbaum, do you have any knowledge of 
whether or not the decision was based on any federal health-
based science research studies or safety studies?
    Ms. Birnbaum. I don't know of that.
    Mr. Gingrey. Either one of you really have any knowledge of 
why the Yucca Mountain Nuclear Waste Repository was cancelled 
after getting so close to completion and I don't know how 
many----
    Ms. Birnbaum. We were never consulted.
    Mr. Gingrey. You weren't involved in that? OK. Dr. 
Birnbaum, you testified that new understanding heightens the 
need to protect people at critical times in their development, 
and you presented actually a range of newly understood risk to 
DNA and the like. What is the bottom line in your view? Are we 
healthier now than we were 50 years ago or not? And if you 
could elaborate on that and maybe provide some data, I would 
appreciate it.
    Ms. Birnbaum. Well, I think that infectious diseases have 
been a success story over the last century, that basically many 
of the diseases that people died from in the past we have been 
able to allow people to live longer, healthier lives. However, 
the increase in chronic diseases certainly has been dramatic 
over the past century and continues. The very, very rapid 
increases in health conditions such as diabetes, autism, ADHD, 
for example, are all issues that have occurred so rapidly, and 
I think most scientists would agree that studies clearly show 
that it is just not a matter of diagnosis but is in fact an 
actual increase that it can't be changed just in our genes. It 
has to be a change in our environment. And I think we are 
beginning to understand that complex diseases in all cases are 
going to reflect an interaction between genes and our 
environment. So for things like autism, for example, and ADHD 
as just two examples, the increases in those again have 
occurred so rapidly, CDC in fact has recently come out with new 
information which demonstrates that now 1 in every 110 children 
is diagnosed with an autism spectrum disorder. That again is 
happening too quickly. The issue of some of the new 
understandings that during development, the expression of genes 
change, and if you alter that expression of genes at critical 
times, in fact, you can never recover from that insult. So I 
think those are the important----
    Mr. Gingrey. Yes. Well, let me just say that I think the 
answer to that question is that we are healthier today than we 
were 50 years ago. Certainly there are more chronic diseases, 
but of course, people are living longer and they are developing 
osteoporosis and obesity and a number of things that may very 
well be related to their own behavior or lack of it, personal 
responsibility.
    Let me go on to my last question because we don't have much 
time. I don't have much time at this point. And I want this to 
be a series of yes and no, so just simply answer yes or no. I 
would like for both of you to do this. Do you believe that good 
science includes relevant, verifiable measurements with 
sufficiently small error rates? Would you agree with that, yes 
or no?
    Ms. Birnbaum. Yes.
    Mr. Falk. Yes.
    Mr. Gingrey. Do you believe that good science includes 
controlled measurements whose interpretation is not authored by 
outside influences?
    Ms. Birnbaum. Yes.
    Mr. Gingrey. No trick questions here. Thank you. You both 
say yes. Do you believe that good science contains results that 
are repeatable by independent scientists? Dr. Falk is shaking 
his head yes. Dr. Birnbaum.
    Ms. Birnbaum. The answer is if they truly try to repeat the 
study.
    Mr. Gingrey. Yes, and assuming they did. So the answer from 
both of you is yes. And finally, do you believe that regulatory 
policy in the United States, things that we do, to the extent 
that it is going to rely on scientific research should, at a 
minimum, make these criteria that you have agreed to, we just 
mentioned, the cornerstone of our policymaking?
    Ms. Birnbaum. Yes.
    Mr. Gingrey. Dr. Falk.
    Mr. Falk. Yes, sir.
    Mr. Gingrey. Thank you all very much. And for the record, 
in case you couldn't hear, the answer to all those questions is 
yes. Mr. Chairman, thank you for your indulgence. I know I am a 
little bit over, and I yield back.
    Mr. Pallone. Thank you. The gentleman from Pennsylvania, 
Mr. Pitts, has 8 minutes.
    Mr. Pitts. Thank you, Mr. Chairman. I apologize. I had to 
step out for a few minutes. I hope I don't ask you about what 
you have already spoken.
    Dr. Birnbaum, you testified that new understanding 
heightens the need to protect people at critical times in their 
development, and you presented a range of newly understood 
risks to DNA and the like. Are we healthier today than we were, 
you know, 50 years ago in your opinion? What is the bottom 
line?
    Ms. Birnbaum. More people are living longer.
    Mr. Pitts. And how do the new health risks that you have 
talked about compare with the risks that contributed to disease 
and development 50 years ago, for instance?
    Ms. Birnbaum. Some of the new understanding is making it 
clear that exposures or effects in early life can lead, be 
associated with, the increase in chronic disease that we are 
seeing. So studies have clearly shown that, for example, some 
under-nutrition, not necessarily starvation, but under-
nutrition or stress can be associated 40, 50, 60 years later 
with an increase in obesity, diabetes, cardiovascular disease 
and cancer.
    Mr. Pitts. Now, you talked about risks with environmental 
toxins. Are you studying naturally occurring toxins as well? 
Have you examined whether there are more natural or more man-
made toxins in the environment?
    Ms. Birnbaum. Under the NTP, we have actually studied over 
2,700 individual substances, and included in that list are at 
least 100 to maybe more natural products.
    Mr. Pitts. And should we be concerned with these natural--
--
    Ms. Birnbaum. Some of those products are carcinogenic.
    Mr. Pitts. And what kind of priorities do you place on 
research to identify, to show the health improvements from 
reductions in the toxins you identify?
    Ms. Birnbaum. Much of the research that we do is driven by 
the nominations that we get and is also by the priorities, 
trying to understand and look at things that are either highly 
toxic or things that can have the opportunity to impact large 
numbers of people. So we talk about very often how broad is the 
exposure, and that is often a determinant of whether we study a 
chemical in detail or not.
    Mr. Pitts. Now, one of the quotes in your testimony, you 
said the Center for Children's Environmental Health actively 
supports the engagement of new community groups involved with 
children's health issues. What do you mean by that statement?
    Ms. Birnbaum. OK. We have 14 children's health centers that 
we co-fund with EPA, and these centers, in addition to having 
all the scientific parts which involves basic research and some 
human studies, also involve a community outreach group. For us 
to go into a community and work in a community, we need to have 
the citizens of that community involved from the start of the 
studies to the completion and then help us in the development 
of materials that can be used to help communicate what we 
learned.
    Mr. Pitts. Now, are some of these groups advocacy groups?
    Ms. Birnbaum. Some of the community groups are advocacy 
groups.
    Mr. Pitts. And what kind of advocacy do you support?
    Ms. Birnbaum. Well, for example, the We Act group in New 
York City which is involved with our Columbia's Children's 
Health Center is very involved. For example, they have played a 
major role in helping New York deal with issues of, for 
example, waste transfer stations, diesel exhaust, developing of 
parks and so on.
    Mr. Pitts. OK. Thank you. Dr. Falk, in your opinion, is our 
environment in better shape today than it was 50 years ago?
    Mr. Falk. I think we actually have made great strides in 
the last 50 years.
    Mr. Pitts. And are we healthier today in your opinion than 
we were 50 years ago? To what extent, you know, as 
technological advances occur, innovation, has that contributed 
to our health?
    Mr. Falk. Yes, in many ways we have improved significantly 
as Congressman Gingrey said before. Heart disease rates are 
coming down, longevity goes up. But there are clearly concerns 
such as increase in rates of obesity in children and actually 
how to weigh those in terms of--I wish CDC had a health index 
that we measure week to week how the Nation's health would go. 
But that is a complicated thing to put together. So yes, we 
have made tremendous advances in many chronic diseases. That is 
not to say there aren't worrisome issues that come up.
    Mr. Pitts. In terms of threats to the environment, does CDC 
examine environmental and human health in the context of 
economic well being of people?
    Mr. Falk. In context of, excuse me?
    Mr. Pitts. Economic well being of people and communities?
    Mr. Falk. Well, I think what happens is that in many of the 
places where we work, such as at ATSDR working at Superfund 
sites, many of those sites are in areas where people are 
economically disadvantaged or impoverished. So inevitably that 
happens, and it is a challenge for them and for us. And so it 
compounds the issues that we have to deal with when we speak 
with them. They often don't have adequate healthcare, and they 
are concerned about healthcare for their exposure with 
chemicals and so on. So there are ways in which I think the 
economic difficulties of people around Superfund sites compound 
the scientific and environmental issues.
    Mr. Pitts. What role does economic well being have on the 
ability to prepare for climate change, for instance, be it 
natural or man-made? Will CDC study that?
    Mr. Falk. In terms of climate change?
    Mr. Pitts. Yes.
    Mr. Falk. We have a program that the appropriation is 
roughly $7.5 million, and our role is particularly to work with 
state and local health departments and others to understand 
local vulnerabilities that might appear from changes in the 
climate, establish surveillance so those things can be tracked. 
For example, communities which have had issues with heat-
related mortality and illness in the past, to be able to track 
that as a change and to understand how do you measure that and 
how one might mitigate that if that increased in the future.
    Mr. Shimkus. Will the gentleman yield on that real quick?
    Mr. Pitts. Yes.
    Mr. Shimkus. Are you also looking at cold-related 
injuries----
    Mr. Falk. Cold-related?
    Mr. Shimkus [continuing]. In response to--I mean, there is 
an argument. Heat-related injuries may go up, cold-related 
injuries may go down. So hopefully you are looking at the 
benefits and the disadvantages if you are focusing on one 
health-related event.
    Mr. Falk. I think in one sense, we actually look at the 
final common denominator. If the heat is increasing, what is 
that doing to the health of people? We try to work with other 
agencies such as energy, transportation----
    Mr. Shimkus. No, but, come on. You got to be fair, here. If 
you are looking at the negative effects on health because of 
heat increases, you have to look at the positive effects if 
there are cold-related injuries or diseases or deaths, and that 
is mitigated by a warming climate. You can't----
    Mr. Falk. You said cold? Did you say cold, c-o-l-d?
    Mr. Shimkus. Yes.
    Mr. Falk. OK. I am sorry. Yes, that is an important issue. 
We understand that. And we----
    Mr. Shimkus. Well, I don't think the Administration does.
    Mr. Falk. Yes.
    Mr. Shimkus. So I would applaud you if you are making sure 
that there is a fair----
    Mr. Falk. We have----
    Mr. Shimkus [continuing]. Look at the cost benefit and 
disadvantages of any effective climate change. I am sorry to 
take the gentleman's time.
    Mr. Pitts. Thank you. My time is expired. Thank you.
    Mr. Pallone. Thank you. The gentlewoman from North 
Carolina, Ms. Myrick.
    Mrs. Myrick. Thank you, Mr. Chairman. Thank you both for 
being here, and I am sorry I missed your opening testimony. I 
am very glad, Dr. Birnbaum, that you are in North Carolina. We 
are happy to have your agency there, no question about it.
    I wanted to ask you a question about the Breast Cancer and 
Environmental Research Act that was passed in the fall of 2008. 
The goal was of course to improve the links between breast 
cancer and environmental, you know, factors. But could you go 
into a bit more detail about the status of that and where it 
stands right now and the provisions of the bill?
    Ms. Birnbaum. Yes. Thank you for your help in establishing 
that bill. NIEHS and NCI both, already before the bill was 
passed, had three Breast Cancer in the Environment Research 
Centers. We have just in fact requested renewal of those and 
gotten in the proposals, and we have been getting a lot of 
information. And those are prospective studies where we are 
actually recruiting young girls before puberty to look for 
environmental impacts on changes in their mammary gland 
development to see what might predispose to breast cancer later 
on.
    As far as the Breast Cancer Environment Act, we have now 
formed the FACA panel that was part of the requirements of the 
Act. It took quite a while actually for the authority to come 
down to us to form that panel, and we are looking to have the 
first meeting of this advisory panel that will involve six 
federal scientists, six non-federal scientists and six 
community groups or representatives of advocacy groups. And 
that committee is anticipating having its first meeting 
hopefully in July.
    Now, in addition, as I said, we fund about $30 million 
right now at the NIEHS in word-related to breast cancer and the 
environment. The centers again are co-funded with NCI, and we 
are very excited in part because some very interesting work has 
come out showing at least that in animal models, that early 
life exposure can actually predispose to breast cancer later 
on. We have also, for example, by measuring chemicals that are 
present in these young girls that we have recruited in three 
very different communities, we have found in fact in one of 
them, near Cincinnati, we found presence of a chemical of great 
concern at very elevated levels in these young girls, but it is 
allowing us to identify the source of that chemical exposure 
and clean it up so that we prevent further exposure from going 
on.
    Mrs. Myrick. Good. Well, I will be interested when you get 
the panel together if it is not too much trouble and you can 
let our office know. And I would be very interested in how the 
first meeting goes.
    Ms. Birnbaum. We will be happy to, and we will also be 
happy to send you the list of the members of the committee.
    Mrs. Myrick. That would be good, too. Thank you. I 
appreciate that. And for both of you, Dr. Falk as well, can you 
speak to your ability as leaders of both of your major 
organizations to share findings and data with other HHS 
entities like FDA and then the EPA for instance? And do the 
conclusive findings at ATSDR or NIEHS regarding specific 
chemicals end up affecting pending product approvals or 
regulatory reviews at EPA and FDA?
    Ms. Birnbaum. Well, for example, FDA in January announced 
that the chemical BPA was of some concern, and that was really 
in large part based upon the findings of our Center for the 
Evaluation of Risk to Human Reproduction which had convened an 
expert panel and involved a lot of outside witnesses as well 
and developed a report which concluded that there was some 
concern about BPA, and FDA now shares that concern. We work 
very closely with the FDA for example. They are a full partner 
in the National Toxicology Program and are very involved not 
only in the nomination of substances and evaluating the studies 
but actually we work with them in the conduct of a number of 
the studies that are carried on at the National Center for 
Toxicological research in Jefferson, Arkansas. In addition, we 
work very closely and provide information to EPA. So for 
example one of the things that NIEHS is mandated to do is issue 
a report on carcinogens which lists chemicals as known or 
anticipated to be likely human carcinogens. And the EPA has 
just decided that they will use that report as definitive 
information and will not need to do their own hazard 
assessments on those chemicals.
    Mrs. Myrick. Dr. Falk.
    Mr. Falk. Yes, Dr. Frieden, the new director of CDC, has 
made it I think a very high priority to work closely with the 
FDA, and that covers a broad range of issues from toxic 
chemicals to nutrition to smoking. You know, for example, FDA 
has a new Office of Smoking and Health, and we have at our 
toxicology laboratory a significant ability to look at toxic 
chemicals in cigarettes and smoke and people. And so we are 
able to provide them information on what we know about work 
like that. So that is a very high priority. And historically we 
have always had a very close relationship with EPA. That is a 
very important one to us.
    Mrs. Myrick. Well, it is important because of what EPA does 
and how they do things and the science or whatever you would 
call the different reasons behind the statements they make and 
the regulatory effects that they have on different chemicals et 
cetera or products.
    Ms. Birnbaum. I would like to just add that EPA also serves 
on our executive board of the NTP, so in fact we have a meeting 
this afternoon, and Dr. Falk is on our executive board. And for 
example, Steve Owens, who is the Assistant Administrator for 
Toxins and Pesticides is on our board as is Paul Anastas who is 
the Assistant Administrator for the Office of Research and 
Development at EPA.
    Mrs. Myrick. Very good. Thank you both, and thank you, Mr. 
Chairman.
    Mr. Pallone. Thank you. I think we are concluded, but I did 
want to say first of all, I should mention that members may 
submit written questions to you usually within 10 days, and 
obviously we would like you to get back to us with responses as 
soon as possible. I know that some members have already asked 
and are going to follow up with some written questions, and we 
appreciate the response.
    Mr. Shimkus. Mr. Chairman? I don't know if we asked for 
unanimous consent that all written statements could be 
submitted.
    Mr. Pallone. Without objection, so ordered. I just want to 
say that I guess it is maybe obvious from what I have said that 
what you do is very important, and you know, this was an 
oversight hearing. It wasn't a legislative hearing. But as I 
have said, if there are things that you think we need to do to 
improve some of the things I mentioned before, the way you link 
environmental hazards and health concerns or do things better 
in the way you operate, we would certainly like to you know, 
get some input in that regard. And so I would appreciate your 
getting back to us. And thank you again for all you do. And 
without objection, the Subcommittee hearing is adjourned.
    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
